No. 19A______
IN THE
SUPREME COURT OF THE UNITED STATES
________________________
UNIVERSITY OF PENNSYLVANIA;
INVESTMENT COMMITTEE; JACK HEUER,
v.

Applicants,

JENNIFER SWEDA; BENJAMIN A. WIGGINS;
ROBERT L. YOUNG; FAITH PICKERING;
PUSHKAR SOHONI; REBECCA N. TONER,
Respondents.
_________________________
Application For An Extension Of Time To File A Petition For A Writ Of
Certiorari To The United States Court Of Appeals For The Third Circuit
_________________________
APPLICATION TO THE HONORABLE
JUSTICE SAMUEL A. ALITO, JR. AS CIRCUIT JUSTICE
_________________________
BRIAN T. ORTELERE
MORGAN, LEWIS & BOCKIUS LLP
1701 Market Street
Philadelphia, PA 19103
CHRISTOPHER J. BORAN
MATTHEW A. RUSSELL
MORGAN, LEWIS & BOCKIUS LLP
77 West Wacker Drive
Chicago, IL 60601

DAVID B. SALMONS
Counsel of Record
MICHAEL E. KENNEALLY
MORGAN, LEWIS & BOCKIUS LLP
1111 Pennsylvania Avenue, N.W.
Washington, DC 20004
(202) 739-3000
david.salmons@morganlewis.com

Counsel for Applicants

CORPORATE DISCLOSURE STATEMENT
The University of Pennsylvania is a private entity and not publicly traded.
There is no parent or publicly held company owning 10% or more of its stock.

i

APPLICATION FOR EXTENSION OF TIME
In accordance with Rules 13.5, 22, and 30.3 of the Rules of this Court, applicants the University of Pennsylvania, its Investment Committee, and Jack Heuer
respectfully request a 30-day extension of time, to and including November 18, 2019,
within which to file a petition for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Third Circuit in this case. (A 30-day extension
of the current deadline extends the deadline to November 16, a Saturday, and so the
requested extension would make the petition due Monday, November 18. See Sup.
Ct. R. 30.1.) The court of appeals entered its judgment on May 2, 2019, and denied
rehearing en banc on July 19, 2019. Unless extended, the time within which to file a
petition for a writ of certiorari will expire on October 17, 2019. The jurisdiction of
this Court would be invoked under 28 U.S.C. 1254(1). The opinion of the court of
appeals (attached as Exhibit A) is reported at 923 F.3d 320. The court’s order denying
rehearing (attached as Exhibit B) is unreported.
1.

In the decision below, a divided Third Circuit panel reversed the dismis-

sal of certain claims asserted by respondents under the Employee Retirement Income
Security Act of 1974 (ERISA), 29 U.S.C. 1001 et seq. The case turns on the appropriate standard for pleading breach-of-fiduciary-duty claims under ERISA.
2.

Over the past few years, plaintiffs have brought around twenty remark-

ably similar ERISA actions against prominent universities around the country. The
defendants in these cases sponsor or maintain retirement plans that allow plan participants to save for retirement through individual, self-directed accounts. In this
type of individual-account, “defined-contribution” plan, each participant’s retirement
1

benefits are ultimately based on the amounts contributed by the participant and his
or her employer to that participant’s individual account, plus or minus any income,
expenses, gains, or losses that result from the participant’s investment decisions and
performance. The university plan cases allege, in relevant part, that the university
defendants breached ERISA’s fiduciary duties of prudence and loyalty by allowing
their retirement plans’ participants to invest in allegedly imprudent investment options. In particular, the cases allege that defendants unlawfully permitted investment in mutual funds and annuities that purportedly charge excessive administrative fees for recordkeeping or other services or that purportedly underperform given
the investment fees charged by those investment options. Because each university
plan case is brought as a putative class action, each threatens to impose tens of millions of dollars in liability—or more—on the university defendants. See, e.g., Sacerdote v. N.Y. Univ., 328 F. Supp. 3d 273, 279 (S.D.N.Y. 2018) (“According to plaintiffs,
NYU’s imprudence resulted in losses totaling more than $358 million.”).
3.

In this case, the district court granted applicants’ motion to dismiss re-

spondents’ amended complaint in full. Sweda v. Univ. of Pa., No. 16-4329, 2017 WL
4179752, at *1 (E.D. Pa. Sept. 21, 2017). The court carefully examined respondents’
allegations in light of the pleading standard articulated in Bell Atlantic Corp. v.
Twombly, 550 U.S. 544 (2007), and reinforced in Ashcroft v. Iqbal, 556 U.S. 662
(2009), as well as circuit court precedent on pleading ERISA breach-of-fiduciary-duty
claims. 2017 WL 4179752, at *7-10. Under these standards, the amended complaint
failed to state a plausible claim for relief. Ibid.

2

4.

A divided Third Circuit panel reversed the dismissal of two counts in the

complaint. 923 F.3d 320. In doing so, the majority faulted the district court for its
reliance on Twombly. See id. at 326. While the district court, guided by Twombly,
had observed that applicants’ alleged actions are “ ‘just as much in line with a wide
swath of rational and competitive business strategy’ in the market as they are with
fiduciary breach,” the Third Circuit majority believed that Twombly’s discussion on
this point “is specific to antitrust cases.” Ibid. (quoting Twombly, 550 U.S. at 554).
The majority “declined to extend Twombly’s antitrust pleading rule to breach of fiduciary duty claims under ERISA.” Ibid. Having done so, the majority disagreed with
applicants’ argument that the complaints’ allegations fail because they are equally
consistent with the prudent and loyal exercise of an ERISA fiduciary’s lawful discretion. Id. at 332-334. According to the majority, “this argument goes to the merits
and is misplaced at this early stage.” Id. at 333.
5.

Judge Roth dissented in relevant part. She stressed that “in enforcing

the pleading standards under Twombly and Iqbal, courts must take great care to allow only plausible, rather than possible, claims to withstand a motion to dismiss.” Id.
at 343 (Roth, J., concurring in part and dissenting in part). Respondents’ allegations
failed to cross that line between possible and plausible for several reasons. For one,
many of the challenged investment options were principally offered to “investors who
have a more sophisticated understanding of investment options.” Id. at 347. For
another, applicants worked throughout the proposed class period to reduce the fees

3

charged by the plan’s investment options, showing that applicants were not simply
“ignoring” the importance of fee reduction. Ibid.
6.

The petition for certiorari will demonstrate that the majority’s charac-

terization and application of the pleading standard for fiduciary breach claims conflicts with this Court’s decisions and those of other federal courts of appeals. This
Court has resoundingly rejected any notion that “Twombly should be limited to pleadings made in the context of an antitrust dispute.” Iqbal, 556 U.S. at 684. And it has
directed lower courts to “apply the pleading standard as discussed in Twombly and
Iqbal” to ERISA fiduciary-breach claims specifically, emphasizing that “careful, context-sensitive scrutiny of a complaint’s allegations” is an “important mechanism for
weeding out meritless claims.” Fifth Third Bancorp v. Dudenhoeffer, 573 U.S. 409,
425-426 (2014). The Third Circuit majority did not heed these instructions. But other
circuit courts of appeals—much like the district court and Judge Roth here—have
faithfully embraced the Court’s pleading standards and rejected similarly deficient
ERISA claims. See, e.g., Pension Benefit Guar. Corp. ex rel. St. Vincent Catholic Med.
Ctrs. Ret. Plan v. Morgan Stanley Inv. Mgmt. Inc., 712 F.3d 705 (2d Cir. 2013); Loomis
v. Exelon Corp., 658 F.3d 667 (7th Cir. 2011); Meiners v. Wells Fargo & Co., 898 F.3d
820 (8th Cir. 2018).
7.

Applicants respectfully request a 30-day of extension of time to prepare

and print the petition in this case. Between the Third Circuit’s order denying applicants’ petition for rehearing on July 19, 2019, and the current deadline of October 17,
2019, applicants’ counsel have had numerous other pressing professional obligations.

4

These include: oral arguments in Heimbach v. Amazon.com, Inc., No. 18-5942 (6th
Cir.), and Davis v. Washington University in St. Louis, No. 18-3345 (8th Cir.); appellate briefs in International Longshore & Warehouse Union v. NLRB, No. 19-70297
(9th Cir.), and Pacific Maritime Ass’n v. NLRB, No. 19-1101 (D.C. Cir.); a petition for
rehearing in Children’s Hospital Ass’n of Texas v. Azar, No. 18-5135 (D.C. Cir.); and
a reply brief in support of certiorari in Zimmer Biomet Holdings, Inc. v. U.S. Dist. Ct.,
No. 18-1484 (U.S.).
8. For all these reasons, applicants respectfully request that the due date for
their petition for writ of certiorari be extended by 30 days, to and including November
18, 2019.
Respectfully submitted,
BRIAN T. ORTELERE
MORGAN, LEWIS & BOCKIUS LLP
1701 Market Street
Philadelphia, PA 19103
CHRISTOPHER J. BORAN
MATTHEW A. RUSSELL
MORGAN, LEWIS & BOCKIUS LLP
77 West Wacker Drive
Chicago, IL 60601
September 20, 2019

/s/ David B. Salmons
DAVID B. SALMONS
Counsel of Record
MICHAEL E. KENNEALLY
MORGAN, LEWIS & BOCKIUS LLP
1111 Pennsylvania Avenue, N.W.
Washington, DC 20004
(202) 739-3000
david.salmons@morganlewis.com

Counsel for Applicants

5

